<html>
<title> - H.R. 908, A BILL TO EXTEND THE AUTHORITY OF THE SECRETARY OF HOMELAND SECURITY TO MAINTAIN THE CHEMICAL FACILITY ANTI-TERRORISM STANDARDS PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 H.R. 908, A BILL TO EXTEND THE AUTHORITY OF THE SECRETARY OF HOMELAND 
  SECURITY TO MAINTAIN THE CHEMICAL FACILITY ANTI-TERRORISM STANDARDS 
                                PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

                           Serial No. 112-28


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
67-321                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chair                         DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky              Islands
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TOMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              HENRY A. WAXMAN, California (ex 
CORY GARDNER, Colorado                   officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   109
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................   111

                               Witnesses

Rand Beers, Under Secretary, National Protection and Programs 
  Directorate, U.S. Department of Homeland Security..............     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................   113
Andrew K. Skipp, President and Chief Executive Officer, Hubbard-
  Hall, Inc., on behalf of the National Association of Chemical 
  Distributors...................................................    54
    Prepared statement...........................................    56
    Answers to submitted questions...............................   121
David C. Tabar, CSP, Global Director of Safety, Sherwin-Williams 
  Company, on behalf of the American Coatings Association........    65
    Prepared statement...........................................    67
    Answers to submitted questions...............................   124
William E. Allmond IV, Vice President, Government Relations, 
  Society of Chemical Manufacturers and Affiliates...............    73
    Prepared statement...........................................    75
    Answers to submitted questions...............................   125
James S. Frederick, Assistant Director, Health, Safety, and 
  Environment, United Steelworkers...............................    82
    Prepared statement...........................................    85

                           Submitted Material

H.R. 908, A Bill to extend the authority of the Secretary of 
  Homeland Security to maintain the Chemical Facility Anti-
  Terrorism Standards program....................................     4
Letter of March 28, 2001, from Randall S. Dearth, President and 
  CEO, LANXESS Corporation, to Mr. Murphy........................    38
Letter of March 30, 2011, from Cal Dooley, President and CEO, 
  American Chemistry Council, to Mr. Shimkus and Mr. Green, 
  submitted by Mr. Murphy........................................    39
Letter of March 29, 2011, from Charles T. Drevna, President, 
  National Petrochemical & Refiners Association, to Members of 
  Congress, by Mr. Green.........................................    45
Written statement of March 31, 2011, from the National 
  Petrochemical & Refiners Association...........................    47
Written statement of March 31, 2011, from Hon. Charles W. Dent, a 
  Representative in Congress from the Commonwealth of 
  Pennsylvania...................................................   106


 H.R. 908, A BILL TO EXTEND THE AUTHORITY OF THE SECRETARY OF HOMELAND 
  SECURITY TO MAINTAIN THE CHEMICAL FACILITY ANTI-TERRORISM STANDARDS 
                                PROGRAM

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:07 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Murphy, 
Whitfield, Bass, Latta, McMorris Rodgers, Harper, Cassidy, 
Gardner, Green, Butterfield, Barrow, and Waxman (ex officio).
    Staff present: David McCarthy, Chief Counsel, Environment 
and Economy; Tina Richards, Senior Policy Advisor, Chairman 
Emeritus; Gerald S. Couri, Senior Environment Policy Advisor; 
Chris Sarley, Policy Coordinator, Environment and Economy; Alex 
Yergin, Legislative Clerk; Jackie Cohen, Democratic Counsel; 
Greg Dotson, Democratic Energy and Environment Staff Director; 
Caitlin Haberman, Democratic Policy Analyst; and Karen 
Lightfoot, Democratic Communications Director and Senior Policy 
Advisor.
    Mr. Shimkus. I would like to call the hearing to order. And 
I will start by recognizing myself for 5 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today we will hold our first legislative hearing on H.R. 
908, a bill that will give regulatory certainty, while 
providing the necessary security to keep chemical facilities, 
the employees who work there, and the American public safe.
    Under the leadership of Chairman Emeritus Barton, language 
authorizing the creation of the Chemicals Facility Anti-
Terrorism Standards Act, which we know as CFATS, became law 
during the 109th Congress. CFATS takes a common-sense approach 
to chemical facility security by allowing the Department of 
Homeland Security to register facilities and determine where 
the biggest security threats exist. This is done through the 
development of risk-based standards that greatly reduce or 
eliminate vulnerabilities. To date, this framework has been 
used successfully, with thousands of facilities around the 
country identified, and industry working collaboratively with 
DHS to comply with regulations. It is important that these 
efforts move forward because the continuation of the CFATS 
program remains critical to our national security.
    Introduced by Vice-Chairman Tim Murphy and Ranking Member 
Gene Green, H.R. 908 will allow our antiterrorism security 
efforts at chemical facilities across the country to remain 
strong and the law underpinning them to remain in effect. At 
the same time it gives DHS time to fully implement this law, 
but most importantly, it provides a signal of clarity to 
business that they will not face uncertainty, fostering job 
creation and getting our economy back on track. I am encouraged 
by the bipartisan effort with introduction of this bill. It has 
played no small part in us holding this legislative hearing 
today and I look forward to continuing these efforts together.
    I appreciate Under Secretary Beers for working with us on 
his schedule to make sure he could testify today and that is 
why we are starting a little bit earlier than we normally do. I 
look forward to an update on the Department's progress as well 
as its thoughts on CFATS moving forward.
    Regarding our second panel, CFATS is a law that affects 
facilities with chemicals, not just chemical facilities. I 
believe it is important for this committee to hear from some of 
those interests. DHS's own information shows that some 
universities, hospitals, warehouses, distributors, and paint 
manufacturers are considered high-risk sites under CFATS. I 
welcome these interests and all our members on the second 
panel. I am equally interested in hearing how their sectors 
have managed implementation, whether they think major new 
additions to the law are warranted, and what type of affects an 
extension of CFATS could have moving forward.
    Finally, I want to raise one more matter in case there have 
been many questions. As everyone knows, our committee has sole 
jurisdiction over the Safe Drinking Water Act and existing 
drinking water security program at EPA. While I am not opposed 
to looking at this issue separately and at a later date, the 
fact of the matter is CFATS is set to expire very shortly and 
the drinking water provisions aren't. In a true risk-based 
spirit, we are going to attack the problem that is the most 
pressing first and then later look into seeing whether 
something more needs to be done in the other area.
    My time has expired. I will look for any one of my 
colleagues who may want a minute and 30, and if not, I will 
yield back my time and yield to the ranking member, Mr. Green 
from Texas, for 5 minutes.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared Statement of Hon. John Shimkus

    The Subcommittee will now come to order. Today we will hold 
our first legislative hearing on H.R. 908, a bill that will 
give regulatory certainty while providing the necessary 
security to keep chemical facilities, the employees who work 
there, and the American public safe.
    Under the leadership of Chairman Emeritus Barton, language 
authorizing the creation of the Chemical Facilities Anti-
terrorism Standards Act (CFATS) became law during the 109th 
Congress. CFATS takes a common sense approach to chemical 
facility security by allowing the Department of Homeland 
Security (DHS) to register facilities and determine where the 
biggest security threats exist. This is done through the 
development of risk-based standards that greatly reduce or 
eliminate vulnerabilities. To date this framework has been used 
successfully, with thousands of facilities around the country 
identified, and industry working collaboratively with DHS to 
comply with regulations. It is important that these efforts 
move forward because the continuation of the CFATS program 
remains critical to our national security.
    Introduced by Vice-Chair Tim Murphy and Ranking Member Gene 
Green, H.R. 908 will allow our anti-terrorism security efforts 
at chemical facilities across the country to remain strong and 
the law underpinning them to remain in effect. At the same time 
it gives DHS time to fully implement this law, but most 
importantly, it provides a signal of clarity to businesses that 
they will not face uncertainty; fostering job creation and 
getting our economy back on track. I'm encouraged by the bi-
partisan effort with introduction of this bill. It has played 
no small part in us holding this legislative hearing today and 
I look forward to continuing these efforts together.
    I appreciate Under Secretary Beers for working with us on 
his schedule to make sure he could testify today. I look 
forward to an update on the Department's progress as well as 
its thoughts on CFATS moving forward.
    Regarding our second panel, CFATS is a law that affects 
facilities with chemicals, not just chemical facilities. I 
believe it is important for this committee to hear from some of 
those other interests. DHS's own information shows that some 
universities, hospitals, warehouses, distributors, and paint 
manufacturers are considered high risk sites under CFATS. I 
welcome these interests and all our members on the second 
panel. I am equally interested in hearing how their sectors 
have managed implementation, whether they think major new 
additions to the law are warranted, and what type of affects an 
extension of CFATS could have moving forward.
    Finally, I want to raise one more matter in case there may 
be questions. As everyone knows, our committee has sole 
jurisdiction over the Safe Drinking Water Act and the existing 
drinking water security program at EPA. While I am not opposed 
to looking at that issue separately and at a later date, the 
fact of the matter is CFATS is set to expire very shortly and 
the drinking water provision aren't. In a true risk-based 
spirit, we are going to attack the problem that is the most 
pressing first and then later look into seeing whether 
something more needs to be done in that area.
    My time has expired, and I yield 5 minutes to the ranking 
member of the subcommittee, the gentleman from Texas and 
cosponsor of H.R. 908, Ranking Member Green.
    [H.R. 908 follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.001
    
    [GRAPHIC] [TIFF OMITTED] T7321.002
    
   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the 
legislative hearing today on H.R. 908, the full implementation 
of the Chemical Facility Anti-Terrorism Standards Act 
introduced by Representative Tim Murphy and myself.
    Chemical facility security is extremely important in the 
protection of public health and safety and particularly in our 
congressional district in Houston. The Houston Ship Channels 
are the heart of the petrochemical complex that stretches along 
the Texas Gulf Coast producing many products essential to 
modern life. It is also the largest petrochemical complex in 
the country. These chemical facilities contribute much in our 
economy and way of life in employing thousands of workers in 
high-paying quality jobs. These dedicated employees, as well as 
the communities that surround these facilities deserve the best 
security standards possible to prevent an act of terrorism on 
U.S. soil.
    Section 550 of the Department of Homeland Security 
Appropriations Act of 2007, Congress authorized the Department 
to regulate security at high-risk chemical facilities. Under 
Section 550, covered facilities must perform security 
vulnerability assessments and implement Site Security Plans 
containing security. According to DHS, since CFATS became 
effective in June of 2008, they have analyzed nearly 40,000 
facilities across the United States. Initially, DHS identified 
more than 7,000 facilities as potential high-risk. Then over 
2,000 facilities have been downgraded or are no longer 
regulated. Currently, CFATS covers 4,744 high-risk facilities 
nationwide across all 50 States, of which 4,126 facilities have 
received high-risk determinations.
    The program is funded through appropriation rider due to 
expire on March 18 with the CR. It is very important for the 
security of this country to revisit this statute to determine 
what is working in this program and what can be improved upon.
    Additionally, it is important we provide industry with some 
assurance that the program will continue to be funded. Since 
2001, chemical facilities have already invested billions in 
security improvements or fully complying with current 
regulations. Last year, H.R. 2868, the Chemical Facility 
Antiterrorism Act introduced by Representatives Thompson, 
Waxman, and Markey passed out of this committee and the full 
House. But unfortunately, like many good pieces of legislation, 
the House passes H.R. 2868 was never taken up by the Senate, 
and we are here today to begin discussions on how to proceed 
with chemical security.
    I worked hard with Ranking Member Waxman and Markey to 
improve H.R. 2868. One of these provisions was to avoid 
unnecessary duplication between CFATS and exempted MTSA 
facilities. I continue to support provisions to avoid overlap 
with existing security programs and I intend to ask our 
witnesses today about this issue as well.
    And again, I want to thank our witnesses for appearing and 
welcome Under Secretary Beers. And with that, thank you for 
taking the time to discuss this important program. And Mr. 
Chairman, if I have any time left, I would like to yield to our 
ranking member of the full committee.
    Mr. Shimkus. Do you want your full time?
    Mr. Green. You want your full time? OK. I will yield back.
    Mr. Shimkus. The gentleman yields back. The chair now 
recognizes the subcommittee vice-chairman, Mr. Murphy, for 5 
minutes.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. I want to thank you 
and also my colleague, Gene Green of Texas, for working with me 
on this bill.
    The chemical industry, we know, touches every segment of 
our economy from agriculture to energy production to paint and 
plastics. Certainly, there is nothing we can go through for an 
hour in our lives without touching several layers of it, and 
its safety and security is of high importance to all of us and 
essential to our Nation's economic recovery in maintaining a 
strong domestic chemical industry. So any federal policy on 
plant security has to be mindful of that public health and 
safety but also has to make sure we have a regulatory certainty 
climate and stability so the chemical employers can continue to 
safely grow jobs and create a better economy.
    Under the Chemical Facility Anti-Terrorism Standards, our 
chemical plant and refineries have made significant 
improvements towards keeping our communities safe. In fact, 
since September of 2001, the domestic chemical industry has 
spent an estimated $8 billion on plant security and under the 
existing framework will spend another $8 billion. The law, we 
know, identifies four high-risk categories that require 
vulnerability assessments and Site Security Plans, but more 
importantly, the oversight and enforcement of the Department of 
Homeland Security.
    By the way, I am pleased that we will be hearing today from 
a Marine to talk about that because if anybody can tell us 
about security, call in the Marines, right? Important that we 
also have here today information on how this is working and 
present to us any information with regard to its effectiveness 
and implementation. Certainly, it does not deal with all 
aspects of chemical safety. That is for other issues on other 
legislation. This is specifically as it relates to some of 
these antiterrorism security measures. And we will look forward 
to hearing about this.
    So given that we have a successful program here, instead of 
changing it, the issue is let us provide domestic employers 
certainty on the regulatory front so they can continue to work 
towards the issue of security. Otherwise, we would be creating, 
I think, more barriers, more confusion with regard to security 
and jobs.
    So I look forward to working with Chairman Shimkus and 
Upton of the Energy and Commerce Committee, and of course with 
Ranking Member Gene Green to pass this bipartisan legislation 
and ensure that a key part of our Homeland Security policy is 
maintained. And with that, Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    After the terrorist attack of 9/11/2001, federal officials 
and outside experts warned that the Nation's drinking water, 
utilities, and chemical facilities were vulnerable to terrorist 
attack. The risk that common, useful chemicals could be wielded 
as weapons by those who would seek to harm us became an 
alarming possibility and concern.
    In 2006 the Appropriations Committee established a program 
to protect the Nation's chemical facilities from terrorist 
attack and other intentional acts. The Chemical Facility Anti-
Terrorism Standards Act was established by a provision tacked 
onto an appropriations bill. Today's hearing examines H.R. 908, 
legislation to extend the authorization for this 2006 program 
for another 7 years.
    The Department of Homeland Security has made tremendous 
progress in developing its chemical security program. They have 
done so without a great deal of congressional guidance. 
Although the provision establishing the program was within the 
jurisdiction of this committee, the committee didn't mark up a 
report the provision. The members of this committee didn't 
consider and revise it. Unfortunately, it was enacted without 
our input.
    The rationale was that this program was an emergency 
measure. It would be established quickly but would also end 
quickly, giving our committee the opportunity to develop a 
comprehensive policy. The Department of Homeland Security was 
directed to issue regulations in just 6 months and the program 
was slated to expire in 2009. But now we have seen that 
deadline extended with each appropriations bill.
    The Department has done well in getting the program off the 
ground, but it is unable to correct shortcomings in the 
underlying law authorizing its program. That task falls to us 
as the committee of jurisdiction.
    And there are serious shortcomings with the law that create 
dangerous security gaps. For instance, drinking water 
facilities are not covered at all. Unfortunately, H.R. 908 
simply extends the authorization of the existing program and 
would not address significant security gaps that put Americans 
at risk. It doesn't have to be this way. In the last Congress, 
Democratic and Republican staff spent hundreds of hours 
methodically working through the issues surrounding the CFATS 
program. We worked with the Majority and Minority of the 
Committee on Homeland Security. Industry, labor, and affected 
stakeholders were consulted throughout the process.
    The result was H.R. 2868, the Chemical and Water Security 
Act of 2009, which this committee reported and passed the House 
on a vote of 230 to 193. That legislation would have closed 
significant security gaps by establishing a security program 
for drinking water facilities and wastewater treatment works. 
The legislation would have harmonized the Chemical Facility 
Anti-Terrorism Standards Act with the Maritime Transportation 
Security Act. It also would have removed exemptions from 
Federal facilities.
    H.R. 2868 would have strengthened security at covered 
facilities by requiring assessment and in some cases adoption 
of safer chemicals, processes, or technologies to reduce the 
consequences of a terrorist attack. That common-sense policy 
would help facilities reduce the likelihood that they will 
become attractive terrorist targets.
    H.R. 2868 would also have strengthened security nationwide 
by creating an important mechanism for citizen enforcement. 
Companies, state attorneys general, and ordinary citizens could 
have used this provision to hold the Department to deadlines 
and ensure that the program was implemented.
    Unfortunately, in its current state, H.R. 908 would make 
none of these changes and would do nothing to close the 
significant security gaps we face as a Nation. I hope that we 
can have a robust committee process, find common ground to 
close those security gaps once and for all, and to make our 
country safer.
    Finally, I would like to note a number of issues with this 
legislation relating to the legislative protocols announced by 
the majority leader. For instance, legislation authorizing 
discretionary appropriations is required to specify the actual 
amount of funds being authorized. H.R. 908 does not do this. 
The Republican leadership has also said that they require a new 
or increased authorization to be offset by the termination of 
an existing authorization of equal or greater size. H.R. 908 
does not terminate any existing authorization. As we move 
forward in the legislative process, it is important that we 
understand how H.R. 908 comports with these protocols.
    Mr. Chairman, thank you for holding today's hearing. This 
is an important issue and one that I hope we can work on 
together. I yield back my time.
    Mr. Shimkus. Thank you, Mr. Waxman. Now, I would like to 
recognize the Honorable Rand Beers. I will just say before--we 
are honored to have you. I have gone through your bio and 
career: public servant, Marine rifle company commander in 
Vietnam and then all over the place working in service to this 
country. So we do appreciate you coming and thank you for your 
service. And you are recognized for 5 minutes for your opening 
statement.

 STATEMENT OF RAND BEERS, UNDER SECRETARY, NATIONAL PROTECTION 
 AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Beers. Thank you, Mr. Chairman, Ranking Member Green, 
distinguished----
    Mr. Shimkus. Sir, there is probably a button on the front 
there.
    Mr. Beers. Oh, there is. There we go. Thank you, sir. Thank 
you, Mr. Chairman, Ranking Member Green, and distinguished 
members of the committee. It is a pleasure to be here today and 
thank you for working to accommodate our schedules jointly.
    As you all are aware, Section 550 of the fiscal year 2007 
Department of Homeland Security Act, as amended, set up the 
expiration of this program in October of 2010, and it has been 
extended through the legislative process, including to this 
committee and is set to expire. So we are very eager to work 
with the committee and all levels of government and the private 
sector to achieve passage of the legislation and permanently 
authorize the Chemical Facilities Anti-Terrorism Standards 
program.
    While the inspection process is still ongoing, our analysis 
indicates that this program is delivering tangible results that 
make our Nation more secure. For example, since our inception, 
there have been 1,246 committees having completely removed 
their chemicals of interest and an additional 584 facilities 
that no longer possess the quantity of chemicals of interest 
that meet the threshold to be considered as high-risk 
facilities.
    Currently, as has been indicated, there are 4,744 high-risk 
facilities nationwide in all 50 States, of which 4,126 
facilities have received a final high-risk determination and 
due dates for the submission of their Site Security or 
Alternate Security Plans. This is a reflection of the 
significant work that has been done to date, beginning with the 
review, as indicated, of more than 39,000 facilities that 
submitted initial consequence screenings.
    More than 4,100 facilities have submitted their Site 
Security Plans, and in February of 2010, the Department began 
conducting inspections of the final-tiered facilities, starting 
with the highest risk, or Tier 1, facilities. The Department 
has completed approximately 175 preauthorization inspections to 
date.
    An important point that I hope does not get lost in these 
statistics is the open dialogue that DHS has established with 
industry through this program and the successful security gains 
that have already been implemented as a result.
    We enjoy a constructive dialogue with Congress, including 
members of this committee, as it contemplates new authorizing 
legislation for the CFATS program. The Department supports 
permanent authorization for the program, is committed to 
working with the Congress and other security partners to pass 
stand-alone chemical security legislation that includes the 
permanent authority beginning in fiscal year 2011.
    As you know, the administration believes that such an 
authorization should close security gaps in the current 
structure, such as eliminating the exemption for water and 
wastewater facilities and prudently approaching mandatory 
consideration of inherently safer technology.
    Again, thank you very much for holding this important 
hearing, and I would be happy to respond to any questions that 
you might have, Mr. Chairman, and other members of this 
distinguished committee.
    [The prepared statement of Mr. Beers follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.003
    
    [GRAPHIC] [TIFF OMITTED] T7321.004
    
    [GRAPHIC] [TIFF OMITTED] T7321.005
    
    [GRAPHIC] [TIFF OMITTED] T7321.006
    
    [GRAPHIC] [TIFF OMITTED] T7321.007
    
    [GRAPHIC] [TIFF OMITTED] T7321.008
    
    [GRAPHIC] [TIFF OMITTED] T7321.009
    
    [GRAPHIC] [TIFF OMITTED] T7321.010
    
    [GRAPHIC] [TIFF OMITTED] T7321.011
    
    [GRAPHIC] [TIFF OMITTED] T7321.012
    
    [GRAPHIC] [TIFF OMITTED] T7321.013
    
    [GRAPHIC] [TIFF OMITTED] T7321.014
    
    [GRAPHIC] [TIFF OMITTED] T7321.015
    
    [GRAPHIC] [TIFF OMITTED] T7321.016
    
    [GRAPHIC] [TIFF OMITTED] T7321.017
    
    [GRAPHIC] [TIFF OMITTED] T7321.018
    
    [GRAPHIC] [TIFF OMITTED] T7321.019
    
    [GRAPHIC] [TIFF OMITTED] T7321.020
    
    [GRAPHIC] [TIFF OMITTED] T7321.021
    
    [GRAPHIC] [TIFF OMITTED] T7321.022
    
    Mr. Shimkus. Thank you, sir. I will recognize myself for 
the first 5 minutes of questioning.
    The last time you were before our committee, you testified 
that 6,156 facilities fell into one of the top four high-risk 
tiers. Today, on your testimony you are suggesting that there 
are 4,744 facilities or around 1,400 less than before now fall 
into one of the top four high-risk tiers. I think you mentioned 
some of that in your opening statement as far as the amount of 
chemicals being removed so they fell out of the criteria. The 
decline, is some of it due to plant closings themselves? Do you 
know?
    Mr. Beers. Sir, I can't give you an exact figure on plant 
closings, but almost all of them are a result of the movement 
of the chemicals of interest offsite or the reduction in the 
amount onsite that resulted in the removal of them from the 
list of the high-risk tier.
    Mr. Shimkus. Your staff could probably check these numbers 
and get us that information?
    Mr. Beers. We will, sir.
    Mr. Shimkus. And thank you. Also, Ranking Member Waxman 
talked about the budgetary aspects, but based upon the present 
submission of a budget, there is probably a line item for this 
program in that budget, is that not correct?
    Mr. Beers. That is correct, sir. It is approximately 100 
million a year. It was 105 in FY '10, it was 203 in the FY '11 
request, and it is 99 million in the FY '12 request, so roughly 
100 million, sir.
    Mr. Shimkus. Great, thank you. Great. That is helpful. 
Thank you. Also the last time you testified you stated that you 
did not have any idea of how much industry was spending to 
comply with CFATS, but you did note that based on the number of 
top-screened DHS was receiving that many material modifications 
were being made by covered facilities. You didn't have last 
time--do you know of how much industry has had to spend to 
upgrade to meet CFATS compliance?
    Mr. Beers. Sir, I don't have that number at the tip of my 
fingertips. Let me have staff----
    Mr. Shimkus. Is that something that in your negotiations 
they talk to you about at all or----
    Mr. Beers. One of the considerations that we bring to bear 
is we develop Site Security Plans is yes, sir, the cost of 
those security plans. Security is not a free good, as you well 
know, and we are very mindful of that. That doesn't mean that--
everyone has to recognize that some costs may be required to 
implement a good security plan. But a good security plan is 
good neighborliness on the part of the chemical industries in 
the areas that their facilities exist.
    Mr. Shimkus. Are there still implementation issues that 
need clarifying, such as personnel surety or agricultural 
chemical issues?
    Mr. Beers. Yes, sir. Both of those are still works in 
progress. The personnel surety plan has been a subject of 
discussion between ourselves and the chemical industry. We are 
close to being in a position to come forward with that 
proposal. The indefinite extension of this regulation applying 
to some agricultural production facilities remains in effect. 
We have done several studies, but I can't give you an 
indication of when we are going to get to the end of that 
indefinite extension, sir.
    Mr. Shimkus. And in my opening statement I mentioned 
numerous programs from hospitals. This is a wide range, a 
portfolio, and I just wanted to put that out just for the 
public to understand that this does more than just chemical 
plants. It is a pretty wide range. And of course, from 
universities to hospitals are some that we would not normally 
think would be involved in this program. And in testimony in 
the last Congress sometimes that got confused. So I am just 
reiterating. You would agree with that, that there are 
hospitals and universities and it is a wide range of areas that 
are involved with the CFATS program?
    Mr. Beers. Yes, sir. I mean just beyond the chemical 
manufacturers themselves, this affects warehousing 
distributors, oil and gas operations, hospitals, semiconductor 
manufacturers, paint manufacturers, colleges and universities, 
some pharmaceuticals, and some parts of the agricultural 
industry. And I have not finished the list there but that is 
certainly enough for giving people an indication of how broadly 
this particular law affects companies and facilities around the 
country.
    Mr. Shimkus. Great, sir. Thank you very much. Now, I yield 
back my time and recognize Mr. Green for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I have some questions 
on coordination, but let me follow up with that.
    In your testimony you talk about the exemption, for 
example, of water and wastewater facilities. Are there any 
other facilities that are not part of the law now that you 
think should be included in it other than wastewater and water 
facilities?
    Mr. Beers. Sir, we have talked before and you mentioned in 
your opening statement the MTSA exemption, which takes marine 
facilities or facilities that are located in areas defined as 
marine areas, which do in fact have chemical facilities that 
would fall under this regulation if they were not exempted from 
it. I can report to you that the Secretary has made it very 
clear both to me and the Commandant of the Coast Guard that she 
wants that harmonized with or without a law. We have engaged, 
over the course of the last year, in a working group study. 
There are 18 recommendations that are now moving up the chain 
as a result of that committee's study, and I am hopeful that we 
will have that to the Secretary for final approval in the not-
too-distant future.
    Mr. Green. I appreciate that and that is one of my concerns 
is that MTSA, you know, is part of the Transport Worker 
Identification Card, and my concern was that we would have a 
separate card for employees who actually go between these 
facilities and is it hope that Homeland Security under current 
authority could require or give credit to the TWIC card for 
someone at a chemical security facility or vice versa?
    Mr. Beers. Yes, sir. That is exactly the point that the 
chairman was making when he asked about the Personnel Surety 
Program, and that is an effort that we are trying to merge 
between the two programs. It certainly defies logic, may I say, 
if we have one card for one kind of facility and one card for 
another. Having said that, and having spent some time around a 
table with a number of members of my staff and other staff, it 
is not a simple process, but it is a process which we are 
committed to and engaged in and I hope to have, as I said, an 
answer in the very near future.
    Mr. Green. OK. I have 260,000 TWIC cards issued in our 
district and so I would hope that we would have some 
coordination because we have plants that are not on the water 
side but they are owned by the same company and yet, you know, 
they would have the flexibility to transfer those staff between 
the two.
    I am glad in your testimony you also talked about prudent 
IST. Under current authorization, does the Department have the 
authority to look at inherently safer technology?
    Mr. Beers. It is not so much an authority question as it is 
that we have asked our Science and Technology Directorate 
within the Department to do a study of this issue. I don't want 
to indicate that it is exhaustive but we in the CFATS area have 
not at this point in time as part of the CFATS program made any 
investigatory effort. Should such a requirement be enacted, we 
are poised to begin that process but no, sir, we haven't 
actually begun it.
    Mr. Green. So is your testimony you don't think you have 
the authority right now or you just haven't begun to explore 
that?
    Mr. Beers. We just haven't begun to explore it. That is why 
I said we did have the Science and Technology Directorate 
explore information on that and that is available to us. At 
this particular point in time we didn't feel it was appropriate 
to move any further than that initial exploratory effort on 
their part.
    Mr. Green. OK. Well, it would seem that if there is an 
issue, hopefully the Department would come to Congress and say 
this is something we need and that way we could respond.
    The exemption of water and wastewater facilities, last 
Congress we had legislation that included that, included lots 
of, you know, multiple utility districts that were very small, 
of course, some of the largest cities in the country. Is there 
anything under current law in CFATS that would allow for 
Homeland Security to also coordinate with our local 
communities, again, from the smallest to the largest to deal 
with some of the chemicals that are stored that makes our 
drinking water safe.
    Mr. Beers. Sir, as part of our general outreach voluntary 
program under the National Infrastructure Protection Plan, we 
certainly can talk to those facilities in a best-practices 
sense. But in terms of any formal regulatory authority, 
obviously we have that exemption and no, we have not had that 
kind of a discussion in that sense. We have certainly worked 
with EPA to come to an understanding of the size of the 
population that we might be talking about. We have coordinated 
with them about the general notions that would come under a 
cooperative regime, which we have agreed to should that be 
enacted. But the actual communications of what a regulatory 
regime might look like, no, sir, it is a voluntary outreach 
program at this particular point.
    Mr. Green. Thank you.
    Mr. Shimkus. Thank you. And chair now recognizes Mr. Murphy 
for 5 minutes.
    Mr. Murphy. Thank you. And again, welcome here, Mr. Beers.
    For all practical purpose, CFATS, which took effect in June 
of 2007, and it has taken DHS 3 years and 10 months to work out 
the Tier 1 facilities and I think about 175 preliminary 
authorization inspections and four formal authorization 
inspections. How much longer do you think it will take to 
conclude the preliminary authorization inspections on the other 
41 Tier 1 facilities? Do you have any idea?
    Mr. Beers. Sir, I have told my staff that I expect those to 
be completed by the end of this calendar year. We have 
obviously taken more time than you or we would have liked in 
terms of moving this program forward, but part of the reason 
that that time has been taken is that one, we are absolutely 
committed to a dialogue with industry on this issue, and we are 
trying to and continuing to try to set up a program that is a 
cooperative program. I think that by and large if you talk to 
industry, they will give you a response not dissimilar to what 
I am telling you right now. That dialogue has taken time. We 
have learned a lot on the path from the law's enactment to 
today and I have no doubt that we will continue to learn that. 
But we are definitely committed to getting the Tier 1 
facilities done by the end of this year. And as you know, at 
the beginning of this calendar year, we began a major effort to 
move this forward.
    Mr. Murphy. Thank you. What about the other authorization 
inspections? Same thing? You feel that----
    Mr. Beers. The other categories?
    Mr. Murphy. Yes.
    Mr. Beers. We will move onto them as soon as we get through 
the preauthorization inspections of the Tier 1 facility. So as 
you note, we have done 175. There are 216 facilities that are 
in Tier 1 and 3 that are pending final tiering. So we should be 
able to move through those on the pre-inspection relatively 
quickly. It is getting the final version of the Site Security 
Plan and reviewing it and issuing letters that they should 
begin implementation that has taken up the time. They and we 
discovered that the original submissions didn't always have a 
sufficient amount of detail and that has required a dialogue. 
We have learned a lot from that dialogue and I think we can 
move this program more quickly now based on that information.
    Mr. Murphy. Thank you. And you feel industry has been 
cooperative with you in trying to implement these?
    Mr. Beers. Absolutely been cooperative, sir.
    Mr. Murphy. Thank you. When you testified for this 
committee before, DHS stated that it has not studied the 
inherently safer technologies' potential effects on employment. 
Has that taken place since this hearing?
    Mr. Beers. No, sir, not to my knowledge.
    Mr. Murphy. OK. All right. How about can you explain to me 
how inherently safer technology works to prevent theft and 
diversion of chemicals in any way? Is that part of the things 
that you would have jurisdiction or would be looking at 
yourselves?
    Mr. Beers. The simplest explanation of inherently safer 
technology actually deals with a water issue, as you are well 
aware. The use of chlorine in water creates a chemical that 
represents a risk depending upon the volume of the chemical 
stored at the particular site. There is an alternative which 
does not require a toxic chemical to be put there and use in 
that. And the question is whether or not we are going to have 
movement in that direction.
    But let me be clear. While there may be an estimated 6,000 
water and wastewater facilities that might fall under this were 
it included. We don't have enough firm data to tell you how 
those would stratify out and in fact whether they would all in 
fact be within the regime as you----
    Mr. Murphy. OK. Have you been communicating with EPA on 
these issues? Are you able to talk with them?
    Mr. Beers. We have been talking with EPA since the last 
Congress and the bill that this committee----
    Mr. Murphy. Is that a cooperative relationship as well?
    Mr. Beers. Yes, sir, I think it is.
    Mr. Murphy. Do we need a federal law to tell you to do 
that? Or it sounds like you are already doing that, which I 
appreciate.
    Mr. Beers. No, we don't need a federal law to tell us to do 
that.
    Mr. Murphy. Thank you. Because I know before we passed the 
Title IV, the Public Health Security and Bioterrorism 
Preparedness Response Act in 2002, which requires security for 
drinking water facilities and we are pleased that things are 
going over and that you are working cooperative on that. But I 
see I am out of time, so thank you so much, sir, and I yield 
back my time.
    Mr. Beers. Thank you, sir.
    Mr. Shimkus. Gentleman yields back his time. Chair 
recognizes ranking member of the full committee, Mr. Waxman, 
for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. I am concerned that 
this legislation would leave unanswered many questions about 
our Nation's vulnerability to attack on chemical facilities and 
I would like to explore some of these questions with you, Mr. 
Beers.
    Is it true that drinking water and wastewater facilities 
are statutorily exempt from the CFATS program?
    Mr. Beers. Yes, sir.
    Mr. Waxman. Are they exempt because there is no risk of a 
terrorist attack?
    Mr. Beers. Sir, I was not present when the law was 
originally put forward. I am not privy to the decision-making 
process that resulted in the exemption.
    Mr. Waxman. OK. Is it true that nuclear facilities are also 
statutorily exempt from the CFATS program?
    Mr. Beers. Yes, it is, sir.
    Mr. Waxman. Should I rest assured that terrorists will not 
target these facilities?
    Mr. Beers. No, sir, you should not rest assured that they 
will not, but we believe that the security regime that the 
regulatory agency has there is sufficient. Having said that, we 
have an outreach program between the Department of Homeland 
Security, the Nuclear Regulatory Commission, and the Department 
of Energy to talk in a voluntary mode about facilities that are 
also regulated by another department or agency.
    Mr. Waxman. What about the federal facilities that have 
large stores of chemicals that the Department is concerned 
about, the so-called Appendix A chemicals? Are they exempt?
    Mr. Beers. Yes, sir. That is my understanding.
    Mr. Waxman. Is there any reason to think that chemicals 
pose less of a risk when they are at federal facilities than 
when they are at private facilities?
    Mr. Beers. No, sir. But we have a lot more control over the 
security at federal facilities than we do without the CFATS 
program over private-sector facilities.
    Mr. Waxman. Are you concerned about these gaps created by 
these exemptions?
    Mr. Beers. Sir, the administration is taking the position, 
which I support, that water and wastewater ought to be included 
in this regime. We have also undertaken an effort within the 
Department of Homeland Security, as I indicated earlier, to 
ensure that there is a common regime between those facilities 
that are regulated under the MTSA and those facilities that are 
regulated under CFATS. That committee effort is completed. The 
recommendations are now moving up the chain to the Secretary to 
approve that, but she has made very clear to both me and the 
Commandant of the Coast Guard that she expects a harmonious 
regime across these two areas.
    Mr. Waxman. There are gaps and you expressed concern about 
them. You think they are otherwise being addressed but would 
H.R. 908 address those gaps?
    Mr. Beers. H.R. 908 focuses on the permanent authorization. 
Sir, we also need the permanent authorization. The fact that we 
are living from year to year or CR to CR is not a particularly 
good way for us to run a program and work with our partners in 
the industry if we are uncertain about the future of it. You--
--
    Mr. Waxman. Uncertain about the future of CR?
    Mr. Beers. Excuse me?
    Mr. Waxman. Are you uncertain about the future of a CR?
    Mr. Beers. Sir, a CR has an end date. If the next act with 
respect to this year's appropriations doesn't address this 
issue, yes, sir. I am.
    Mr. Waxman. I can understand that. I was being a little 
facetious in my question to you.
    We have only touched upon some of the significant security 
gaps. As you know, port facilities are not held to the same 
security standards as chemical facilities even though they may 
pose the same risk, and I hope that this subcommittee is able 
to work together to address those security deficiencies and 
craft legislation to secure our Nation.
    It has been almost 10 years since the attacks of 9/11 but 
the job of securing our country's vulnerable assets is still 
unfinished, and I am concerned that DHS continues to miss 
milestones for implementation of this important program.
    Mr. Beers, how many facilities have completed the CFATS 
process?
    Mr. Beers. Sir, in terms of the final approval of a plan, 
no facilities have. We have 175 that have received 
authorization letters and we have inspected--that means that 
they go forward implementing their Site Security Plan so that 
we can then go out and look at the implementation of the Site 
Security Plan. We have four of those 175 who have had an 
inspection after they have begun to implement those plans and 
we expect that those four, which are currently under review, 
will be finally approved in the not-too-distant future.
    Mr. Waxman. Um-hum. Well, let me just say--and I only have 
a few seconds left--it has been almost 4 years since the 
Department's rules took effect and not one facility has 
completed the process. With that success rate I think we should 
all have concern about simply rubberstamping this program for 
another 7 years. And I just want to put that issue on the 
table. Thank you, Mr. Chairman.
    Mr. Shimkus. Thank you, sir. And before I recognize Mr. 
Latta, I want to recognize Mr. Murphy for unanimous consent 
request.
    Mr. Murphy. Thank you, Mr. Chairman, a request for two 
letters, with unanimous consent, to submit. One is a letter 
from the CEO Randy Dearth of LANXESS and the other one is from 
the American Chemistry Council.
    Mr. Shimkus. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.023
    
    [GRAPHIC] [TIFF OMITTED] T7321.024
    
    [GRAPHIC] [TIFF OMITTED] T7321.025
    
    Mr. Shimkus. The chair now recognizes the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and Mr. 
Under Secretary, thanks very much for being with us today.
    If I can just go back, on page 3 of your testimony on the 
very bottom of the paragraph there, talking about what is 
listed about 322 chemicals of interest. And I think that a 
question was asked mainly on agriculture, which I think the 
chairman had mentioned. The other thing you say there is an 
indefinite suspension on agriculture. What was that again, 
please?
    Mr. Beers. Sir, because of the use of fertilizer in the 
agricultural industry, quantities of that fertilizer that are 
stored on farms, as well as at the wholesale distributor, that 
represented a large problem that we recognize but were not 
prepared in the initial effort to try to get at the heart of 
the problem, which are these larger facilities. So we gave them 
an extension, we have conducted some studies, but we are not to 
the point where we are prepared to talk about rule-making with 
respect to those facilities.
    Mr. Latta. Thank you very much. Because the reason is I 
represent kind of an interesting district. I represent one of 
the largest manufacturing districts in Ohio and I represent the 
largest agricultural district because, of course, with 
anhydrous ammonia, that is one of the ones that our farmers are 
out there using all the time.
    And then another chemical listed is propane because in my 
area we have a lot of folks that live in the country that use 
propane for their main source of heat. Now, would propane be 
another one of those that down the road there might be 
something that--because, again, this is something that folks 
back home rely on all the time.
    Mr. Beers. Sir, with respect to that yes, it is, but we are 
talking about levels of propane, not the fact of propane. And 
sir, I am not a farmer and I don't know how much propane in a 
rural setting a farmer might have on his site, but I do have 
some rural property and I don't have that many propane tanks.
    Mr. Latta. You know, it is mainly for folks that live--and 
even in small villages. They don't have natural gas. They use 
propane tanks that are there to heat their homes. I just wanted 
to double-check that with you.
    And I guess there is also the other question that I have is 
when you are looking at the release and the theft and the 
diversion, the sabotage and contamination, so down the road 
would you be looking at that, then, or because, again, on 
release, again, of course, the farmer is out there when you are 
spraying with anhydrous. I guess that is my question is that 
would somebody in agricultural production fall under these 
regulations? It would be kind of an undue hardship on them.
    Mr. Beers. Sir, that is part of the issue that we are 
working our way through. I mean the point here is that those 4 
issues that you just read out are all considerations, but we 
have the authority to make judgments on how to or what to 
interpret on that. There is a level of storage that we look at, 
but it is also a question of where it is and what kind of 
potential threat it is.
    Mr. Latta. Thank you.
    Mr. Beers. So we take all those issues into consideration.
    Mr. Latta. Thank you very much.
    Mr. Beers. This is not a mechanistically implemented 
regulatory regime.
    Mr. Latta. Mr. Chairman, I yield back. Thank you very much.
    Mr. Shimkus. If the gentleman would yield just your last 50 
seconds for me. I represent parts of 30 counties in Southern 
Illinois so this propane debate is an interesting one. These 
residential tanks are about the size of a pickup truck, the bed 
of a pickup truck. If you were doing a development in a rural 
area where you had 10 or 15 homes with that, based upon the 
footprint of this development, could they fall into this 
process?
    Mr. Beers. No, I don't believe they could. I can give you--
--
    Mr. Shimkus. I guess the issue is how much----
    Mr. Beers. But this is the issue of how much----
    Mr. Shimkus. How much over--right.
    Mr. Beers. And that particular----
    Mr. Shimkus. That might be a good thing because, look, I 
mean we will have an agricultural perspective always through 
this process.
    Mr. Beers. My staff is giving me a prompt.
    Mr. Shimkus. Good.
    Mr. Beers. Sixty thousand pounds----
    Mr. Shimkus. OK.
    Mr. Beers. --is the threshold screening quantity.
    Mr. Shimkus. All right. I will have to find out how many 
pounds are in one of those big tanks.
    Mr. Beers. So there is a propane tank out back of my rural 
property without a dolly of some sort.
    Mr. Shimkus. Right.
    Mr. Beers. Even the larger tanks that you are talking about 
are----
    Mr. Shimkus. And we will follow up. That is what we have 
hearings for. So thank you, sir. Now, the chair would like to 
recognize Mr. Barrow. No, he is not here. Ms. McMorris Rodgers 
for 5 minutes? No questions. Mr. Cassidy for 5 minutes. Would 
the gentleman yield for a second? And hit your button again and 
then pull the microphone up.
    Mr. Cassidy. Now, Mr. Waxman's question implied that the 
NRC is doing a poor job of regulating the security at nuclear 
power plants. When I visited the one in my district, oh, 6 or 8 
months ago, I was impressed with the perimeter fences, the .50 
caliber guns, the check-in process, et cetera. Have you had a 
chance to review the security requirements for such facilities 
and would you accept the implication of his questioning, that 
there is an inadequacy of those?
    Mr. Beers. Sir, as I said in answer to his question, we 
believe that the regulatory regime that those plants are 
currently under is adequate to ensure their protection.
    Mr. Cassidy. OK. I just wanted to make sure that was 
documented.
    Secondly, now, I don't have your expertise--I am totally up 
front about that--but it seems like if we have incompletely 
implemented the rules--doing a great job working at it, but it 
just takes time--of something passed in 2007, it seems almost 
counterproductive to implement a whole other regulator regime 
when people have to adjust midstream. That is just intuitive to 
me. Would you accept that or would you dispute that?
    Mr. Beers. Sir, you point out a challenge that would be 
true if that were the case, but the administration put forward 
its recommendation to add water and wastewater in the belief 
that we, in fact, have learned a great deal----
    Mr. Cassidy. Now, not to be rude but water and wastewater 
were not previously included, so that would not be a regulatory 
regime change if you will. That would be an addendum.
    Mr. Beers. Yes, sir.
    Mr. Cassidy. That is different from saying oh, listen, 
guys, you have been working on this, but by the way, we now 
have another set of rules before you completed the first set.
    Mr. Beers. I am sorry. Are you specifically referring to 
the Inherently Safer Technology part?
    Mr. Cassidy. Correct.
    Mr. Beers. Sir, that is why in the administration's 
presentation of this possible expansion that we want to be very 
clear that the deadlines, if any, take into account the need in 
moving in that direction that would be required by moving into 
an area that we would have to spend some time and effort.
    Mr. Cassidy. But again, just to drill down on my question, 
it seems like if someone has not completely incorporated the 
recommendations of rules issued and regulations issued dating 
back to 2007, to come up with another regulatory regime before 
you have finished the first is almost like a whipsaw and, 
frankly, somewhat wasteful of resources if it turns out IST 
takes you in another direction.
    Mr. Beers. Sir, we put forward the recommendation on this 
in the belief that we could, given sufficient time, be able to 
deal with an expansion of the regime. The challenge that you 
put forward is, I think, an accurately characterized challenge.
    Mr. Cassidy. OK.
    Mr. Beers. I am not disagreeing with you on that. And that 
is why we have been very clear that we would not want to be 
held to a heroic set of deadlines in that regard, because it 
will require an expanded effort; it will require some new 
information.
    Mr. Cassidy. Now, again, you have so much more expertise in 
this area than I that with trepidation that I go forward. But 
still, when I think of IST, I think that that is a fairly 
static concept. Now, it has to be one vetted, you have to have 
public comments, you have got to look at it when frankly there 
may be some innovation out there which doesn't have time to be 
processed. I think of the Maginot Line as being the IST of its 
day and yet clearly tank warfare, you know, ruined the concept. 
Now, do you accept that or is Maginot Line a poor example of 
where we are going with this?
    Mr. Beers. Sir, I am a military historian. I love your 
example. But as the process that we have undertaken with 
respect to the facilities under the current regime has gone 
from a large number of firms that submitted top-screen down to 
a much smaller number, which is approximately 10 percent, and 
we have had 1,200 firms that have fallen off of this because 
they have changed the holdings and we had another several 
hundred that are in lower screening, we recognize that this is 
a dynamic process. And the point that you make about changes in 
technology, we would of course incorporate changes in 
technology as they occurred.
    Mr. Cassidy. But is it fair to say the bureaucracies have a 
difficult time--I am a physician. Whenever they come up with a 
practice guideline, I am always struck that the practice 
guideline has to ignore that which is on the cusp. Because in 
order to get the consensus for the practice guideline, the cusp 
almost has to be marginalized because 90 of the cusp is 
marginalized. But there is 10 percent of that cusp that, wow, 
is the brave new future. Now, I have to think that in your area 
that that may also be true as kind of fertile as yours is for 
innovation.
    Mr. Beers. Sir, that is an excellent example and I think 
you are correct in saying that sometimes bureaucracy appears to 
be slower than reality, but I would also say that one of the 
things about this program that we have absolutely learned is 
that we have to be flexible and adaptable in terms of looking 
at new situations and new pieces of information.
    Mr. Cassidy. Thank you.
    Mr. Beers. So that is what we would do.
    Mr. Cassidy. He is gaveling us. I yield back.
    Mr. Shimkus. The gentleman's time has expired. The chair 
would like, with unanimous consent, recognize the ranking 
member for a UC request and then follow up with a statement.
    Mr. Green. Mr. Chairman, I would like to ask unanimous 
consent to place into the record both a letter and testimony 
from the National Petroleum Refiners Association.
    Mr. Shimkus. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.026
    
    [GRAPHIC] [TIFF OMITTED] T7321.027
    
    [GRAPHIC] [TIFF OMITTED] T7321.028
    
    [GRAPHIC] [TIFF OMITTED] T7321.029
    
    [GRAPHIC] [TIFF OMITTED] T7321.030
    
    [GRAPHIC] [TIFF OMITTED] T7321.031
    
    [GRAPHIC] [TIFF OMITTED] T7321.032
    
    [GRAPHIC] [TIFF OMITTED] T7321.033
    
    Mr. Green. And also one last question. Part of the 
testimony that is going to be submitted by the Petroleum 
Refiners--and let me read a little bit of it--``Under CFATS, it 
is required that personnel with access to sensitive information 
and relevant operations be vetted under the National Terrorism 
Screening Database, no matter if the person has been vetted by 
other government credentialing programs, such as the Transport 
Worker Identification Card or the Hazardous Materials 
Endorsement, or a host of other federal government 
credentialing programs. In the last 2 years, DHS has twice 
proposed in the Federal Registry that employees at CFATS sites 
would have to obtain multiple government credentials.''
    Obviously, there is some confusion out there concerning 
what DHS is doing, and that is our concern about this 
legislation. One of the things, we would like to give you the 
authority to make sure you streamline it instead of people 
having--it is bad enough--I work at the Port of Miami, and I 
have to have a Miami Port card along with a DHS card or a TWIC 
card. We surely don't need multiple federal cards. And so that 
is our concern.
    Mr. Beers. And that is our concern as well, sir, and that 
is what we are trying to work to resolve.
    Mr. Green. OK. Thank you.
    Mr. Shimkus. I want to thank you for coming and appreciate 
your response to the questions. And if you have got information 
on Mr. Green's issue and you want to be receptive to his 
concerns, so if there are ways in which you can provide us 
information as we move forward on this process, we would 
appreciate it. So sir, you are excused and we will sit the next 
panel.
    Mr. Beers. Sir, thank you very much for the opportunity and 
I look forward to continuing to work with you and the 
committee. I appreciate it.
    Mr. Shimkus. Thank you. We will give everyone a chance to 
get seated and then I will do an introduction of the entire 
panel and then we will recognize each member on the second 
panel for 5 minutes, your full statements are submitted for the 
record, and then we will follow up with questions.
    So first of all, we would like to thank the second panel 
for joining us. On the second panel, we have Mr. Andrew Skipp, 
President and CEO of Hubbard-Hall, Incorporated, from 
Waterbury, Connecticut. Also Mr. David Tabar, CSP--what is CSP?
    Mr. Tabar. Certified safety professional.
    Mr. Shimkus. Oh, I should know that. Global Director of 
Safety, Sherwin-Williams--I do know that--from Cleveland; Mr. 
Bill Allmond, Vice President, Government Relations, Society of 
Chemical Manufacturers and Affiliates; and then Mr. James 
Frederick, Assistant Director of Health, Safety, and the 
Environment, and the United Steelworkers.
    And we want to welcome you all here and we will start. Mr. 
Skipp, you are recognized for 5 minutes.

  STATEMENTS OF ANDREW K. SKIPP, PRESIDENT/CEO, HUBBARD-HALL, 
    INC., ON BEHALF OF THE NATIONAL ASSOCIATION OF CHEMICAL 
   DISTRIBUTORS; DAVID TABAR CSP, GLOBAL DIRECTOR OF SAFETY, 
     SHERWIN-WILLIAMS, ON BEHALF OF THE AMERICAN COATINGS 
ASSOCIATION; WILLIAM E. ALLMOND IV, VICE PRESIDENT, GOVERNMENT 
 RELATIONS, SOCIETY OF CHEMICAL MANUFACTURERS AND AFFILIATES; 
AND JAMES S. FREDERICK, ASSISTANT DIRECTOR, HEALTH, SAFETY, AND 
                ENVIRONMENT, UNITED STEELWORKERS

                  STATEMENT OF ANDREW K. SKIPP

    Mr. Skipp. Thank you, and good morning, Chairman Shimkus, 
Ranking Member Green, and subcommittee members. My name is 
Andrew Skipp and I am president of Hubbard-Hall, a chemical 
distributor based in Waterbury, Connecticut. I am also chairman 
of the National Association of Chemical Distributors (NACD), 
and I am pleased to provide testimony today in support of H.R. 
908 to extend DHS's authority to continue the CFATS program.
    NACD is an association of over 250 chemical distributors 
who purchase and take title to products and market them to a 
customer base of more than 750,000. Most NACD members are 
small, privately-owned businesses. The typical member has 26 
million in annual sales, three facilities, and 28 employees. We 
demonstrate our commitment to product stewardship through 
compliance with Responsible Distribution, our mandatory and 
third-party-verified environmental, health, safety, and 
security program.
    As owners and managers, our members have a personal stake 
in safety and security of our employees and companies. We 
demonstrate this through our commitment to Responsible 
Distribution, our relationships with our employees and our 
union members, and through our careful compliance with numerous 
environmental, transportation, safety, regulatory concerns, 
both on a federal, state, and local level.
    On behalf of Hubbard-Hall and NACD, I commend 
Representatives Murphy and Green for introducing the 
legislation to extend DHS's authority to continue CFATS for 7 
years. NACD was a strong supporter of the 2006 legislation that 
resulted in CFATS. H.R. 908 would allow time for the full 
implementation and evaluation of CFATS before changes to this 
important program are considered.
    Because CFATS is a major regulation based upon performance 
standards for each facility rather than on one-size-fits-all 
mandate, it is taking time for DHS to evaluate and inspect over 
4,100 Site Security Plans. However, this approach has the 
advantages of designing plans to address each facility's unique 
situation while avoiding the creation of a single road map for 
potential terrorists.
    The bottom line is the real security measures are being 
implemented at facilities around the Nation because of CFATS. 
For example, my company has three facilities that are covered 
by this program. We have worked hard and spent substantial 
resources to design our Site Security Plans and implement 
additional security measures.
    CFATS is a major regulatory commitment for Hubbard-Hall. We 
are willing to invest the time and the resources to comply with 
this important regulation, and I know that our company and all 
NACD members would welcome the certainty of a clean, long-term 
extension.
    Prior CFATS proposals included measures that would have 
been counterproductive to the good progress that has been made. 
The most disruptive of these have required all CFATS-covered 
facilities, including chemical distributors to conduct 
inherently safer technology, IST assessments, and for those in 
the highest-risk tiers to implement these measures. Such a 
mandate would shift the focus away from the real security 
issues and force companies to consider full-scale engineering 
and product changes.
    I want to emphasize that NACD opposes mandatory IST 
consideration. The fact of conducting IST assessments would be 
extremely costly for NACD members and would not reduce risk. 
For most NACD members, IST assessments would have to be 
outsourced at significant cost and produce limited options. 
Chemical distributors maintain specific inventories in order to 
respond to customer needs. If distributors are required to 
reduce inventories of certain products that would prevent us 
from meeting these needs. Particularly in these tough economic 
times, in addition to the myriad of regulations that already 
affect us, this could be the final straw to put some companies 
out of business, which would result in further job loss. 
Required inventory reductions would also assign additional risk 
to transportation and increase the likelihood of product 
handling incidents.
    Finally, CFATS currently provides incentives to companies 
to use the safest possible methods so they can assign to a 
lower-risk tier. In fact, over 1,200 facilities have reduced 
their security risk so much that they have tiered-out of the 
program. Many more facilities have been assigned to lower 
tiers.
    In conclusion, I repeat that NACD strongly supports the 
legislation to extend the current chemical security program 
with no changes. A clean extension will both provide regulatory 
certainty and allow for continued progress in implementing real 
security measures at our facilities.
    On behalf of Hubbard-Hall and NACD, I appreciate this 
opportunity to present our views on this critical issue and I 
look forward to your questions. Thank you.
    [The prepared statement of Mr. Skipp follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.034
    
    [GRAPHIC] [TIFF OMITTED] T7321.035
    
    [GRAPHIC] [TIFF OMITTED] T7321.036
    
    [GRAPHIC] [TIFF OMITTED] T7321.037
    
    [GRAPHIC] [TIFF OMITTED] T7321.038
    
    [GRAPHIC] [TIFF OMITTED] T7321.039
    
    [GRAPHIC] [TIFF OMITTED] T7321.040
    
    [GRAPHIC] [TIFF OMITTED] T7321.041
    
    [GRAPHIC] [TIFF OMITTED] T7321.042
    
    Mr. Shimkus. Thank you very much, sir. And I would like to 
recognize--and I guess I mispronounced it--Mr. Tabar from 
Sherwin-Williams. You are recognized for 5 minutes.

                    STATEMENT OF DAVID TABAR

    Mr. Tabar. Thank you. Good morning, Chairman Shimkus and 
members of the subcommittee. My name is David Tabar and I am 
the global director of safety for the Sherwin-Williams Company 
in Cleveland, Ohio. I am also here representing the American 
Coatings Association. My purpose here today is to support H.R. 
908, and I thank you for this opportunity to present our views 
before the subcommittee today.
    The paint and coatings industry has been working to enhance 
the security of their manufacturing operations over the last 
decade. Specific steps the ACA has taken include the addition 
of a new security code to our Coatings Care Stewardship 
Program. ACA is a long-standing participant in the Chemicals 
Sector Coordinating Council and continues to work with the 
Department of Homeland Security on both voluntary and mandatory 
security measures under the Chemical Facility Anti-Terrorism 
Standards.
    Over the last several years, the coatings industry has 
worked hard to achieve CFATS compliance, including the 
submission and the conduct of Top-Screens, Security 
Vulnerability Assessments, and Site Security Plans, along with 
the development of proposed action plans requiring further 
review with the DHS. Facilities that were identified as ``high-
risk'' were ultimately assigned one of four tiers by DHS. The 
process is ongoing, and while several coatings industry sites 
have completed this process, including related DHS inspections, 
other firms await DHS response to their Site Security Plans or 
Alternative Security Plans.
    ACA supported the original CFATS legislation and strongly 
supports the current program. This demanding program is now 
requiring thousands of chemical manufacturers and formulators 
nationwide to develop and deploy meaningful security 
enhancements. As a result, ACA supports permanent--or at least 
long-term--reauthorization of the existing CFATS statute in 
order to allow regulated facilities to continue their 
implementation of stringent DHS chemical facility security 
standards in an orderly manner. In our view, it is premature to 
seek to change the existing framework substantially until it 
has been fully implemented and we have gained a better 
understanding of what works and what does not.
    It is important that any uncertainty created by possible 
short-term reauthorizations is eliminated, so as to provide 
regulatory clarity, thus allowing affected industries to make 
prudent business decisions about how best to implement the 
current regulations. ACA, along with other groups, has opposed 
previous efforts to mandate product and process substitutions 
with technology established by regulation. Any move away from 
the current risk-based standards would lead to confusion, loss 
of viable security products, systems methodologies, and would 
create prohibitive legal liability and possible business 
failures. A move away from risk-based standards would most 
certainly put U.S. manufacturers at a competitive disadvantage 
with foreign manufacturers not facing such requirements. By 
making the existing chemical security framework permanent, a 
certainty will be provided that is necessary to enable 
companies to protect our citizens and to facilitate economic 
recovery.
    As a result, although ACA has consistently favored 
permanent CFATS reauthorization, we support the approach taken 
in H.R. 908, the full implementation of the Chemical Facility 
Anti-Terrorism Standards Act. The extension to 2017 provides 
industry with sufficient breathing room to implement CFATS on a 
permanent basis prior to a required revisiting of the law 7 
years from now.
    Many operations throughout the coatings industry are 
covered by CFATS, primary due to commercial grades of raw 
materials that are commonly used to formulate specialty roof, 
emissivity, infrastructure, or automotive coatings. As a 
responsible corporation, Sherwin-Williams has devoted 
considerable resources to CFATS compliance and works hard to 
meet our obligations to neighboring communities, customers, 
shareholders, and the public.
    Examples of CFATS-related actions include: new staff 
positions in chemical facility anti-terrorism; raw material 
elimination or substitution; control of purchasing, sales, 
inventories; development and enhancement of chemical tracking 
technologies; onsite and program-related consultative reviews; 
organization-wide safety and security support team development; 
Alternative Security Plans developed for small facilities; 
development of internal chemical security compliance standards; 
development of Facility Security Officer training; development 
of new risk- and regulatory-based management of change systems 
to improve risk identification, control, and action-closure; 
and the development of employee security awareness training 
programs.
    In light of our own experience, we agree with the position 
of ACA and our industry colleagues concerning a more permanent 
reauthorization of CFATS. Because of significant requirements 
placed on our company and other coatings manufacturers, we 
believe that Congress should continue to recognize this very 
stringent and well-constructed industrial antiterrorism 
program. Thank you.
    [The prepared statement of Mr. Tabar follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.043
    
    [GRAPHIC] [TIFF OMITTED] T7321.044
    
    [GRAPHIC] [TIFF OMITTED] T7321.045
    
    [GRAPHIC] [TIFF OMITTED] T7321.046
    
    [GRAPHIC] [TIFF OMITTED] T7321.047
    
    [GRAPHIC] [TIFF OMITTED] T7321.048
    
    Mr. Shimkus. Thank you, sir. Now the chair recognizes Mr. 
Allmond for 5 minutes, sir.

               STATEMENT OF WILLIAM E. ALLMOND IV

    Mr. Allmond. Thank you. Good morning, Chairman Shimkus, 
Ranking Member Green, and Vice Chairman Murphy, and members of 
the subcommittee.
    My name is Bill Allmond and I am the vice president of 
government relations at the Society of Chemical Manufacturers 
and Affiliates. For 90 years, SOCMA has been and continues to 
be the leading trade association representing the batch, 
custom, and specialty chemical industry. SOCMA's 250-member 
companies employ more than 100,000 workers across the country 
and produce some 50,000 products--valued at $60 billion 
annually--that help make our standard of living possible. Over 
80% of our members are small businesses.
    I am pleased to provide this testimony regarding H.R. 908, 
the full implementation of the Chemical Facility Anti-Terrorism 
Standards Act. SOCMA strongly supports DHS's current Chemical 
Facility Anti-Terrorism Standards, or CFATS. This demanding 
regulation is now required in nearly 5,000 chemical facilities 
nationwide and facilities that use chemicals nationwide to 
develop and deploy meaningful security enhancements. This 
performance-based regulation protects facilities against attack 
without impairing the industry's ability to remain innovative 
and maintain some of the Nation's highest-paying manufacturing 
jobs. Furthermore, the standards have teeth. DHS has the 
authority to levy significant fines on a facility for 
noncompliance, can even shut a facility down.
    Congress can best assure CFATS's continued success and 
forward momentum by passing H.R. 908. This bill would 
reauthorize CFATS through 2017, thus allowing DHS and 
facilities to concentrate on successfully implementing that 
regulation through completion.
    SOCMA regards this regulation thus far as a success. Due to 
the outstanding cooperation of the chemical sector, there has 
been 100 percent compliance with the requirements to submit 
Top-Screens, Security Vulnerability Assessments, and Site 
Security Plans. DHS has not yet had to institute a single 
administrative penalty action to enforce compliance.
    Additionally, 2,000 facilities have changed processes or 
inventories in ways that have enabled them to screen out of the 
program. Thus, as predicted, CFATS is driving facilities to 
reduce inherent hazards, where in their expert judgment doing 
so is in fact safer, does not transfer risk to some other point 
in the supply chain, and makes economic sense.
    To fully gauge the effectiveness of the CFATS program, 
Congress should allow all tiered facilities to come into 
compliance. Completing the program's implementation from start 
to finish would provide DHS and chemical companies the ability 
to assess the overall efficacy of CFATS, identify its areas of 
strengths and weaknesses, and subsequently make or recommend to 
Congress any necessary improvements.
    Conversely, the need for annual reauthorization of CFATS 
has created uncertainty for regulated facilities. Without the 
assurance of a long-term authorization of these regulations, 
companies do run the risk of investing in costly activities 
today that might not satisfy regulatory standards tomorrow.
    Statutory authority for CFATS, which has been tied to a 
series of continuing resolutions passed by Congress since last 
year, is set to expire next week, as you know. Congress must 
act now to ensure continuation of the current standards and 
reauthorize the underlying statute for multiple years.
    As Congress considers chemical security legislation 
further, there is an issue of particular concern to us, which 
is interest among some to mandate Inherently Safer Technology 
within CFATS. One of our greatest concerns with mandatory IST 
is the real possibility that it will negatively restrict the 
production of active pharmaceutical ingredients, or APIs, many 
of the key raw materials of which are regulated under CFATS.
    APIs are used to fight many types of cancer, used in 
prescription and generic drugs and over-the-counter medicines. 
They are thoroughly regulated by the Food and Drug 
Administration and must meet demanding quality and purity 
requirements. Substituting chemicals or processes used for the 
production of APIs would create substantial unintended 
consequences. Substitution would likely violate the conditions 
of companies' FDA approvals. Requiring IST could also delay 
clinical trials while new replacement chemicals are identified, 
and meanwhile, to meet continuing consumer demand, API 
production would likely shift to foreign countries where FDA is 
less able to monitor conformance to quality standards.
    There is a legitimate federal role in IST at the moment, 
however, and DHS is actually serving that role well. A few 
years ago, DHS initiated an increasing safety of hazardous 
chemicals process to develop a consensus definition of IST, and 
from that, to begin crafting metrics that would allow people to 
begin to compare inherent safety of different processes. The 
definition process was open and engaging and concluded last 
year with a document that has been universally praised. This 
program has now begun work on its metrics project, although 
SOCMA understands that there is no funding for that effort in 
the President's fiscal year 2012 budget. That is unfortunate 
because this is an example of how the Federal Government can 
play a useful role in the field of inherent safety. Any attempt 
to mandate even consideration of IST is premature otherwise.
    We recommend the subcommittee move forward and place a 
higher priority on ensuring the current standards are extended. 
H.R. 908 does just that. I appreciate this opportunity to 
testify before you today and I look forward to your questions.
    [The prepared statement of Mr. Allmond follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.049
    
    [GRAPHIC] [TIFF OMITTED] T7321.050
    
    [GRAPHIC] [TIFF OMITTED] T7321.051
    
    [GRAPHIC] [TIFF OMITTED] T7321.052
    
    [GRAPHIC] [TIFF OMITTED] T7321.053
    
    [GRAPHIC] [TIFF OMITTED] T7321.054
    
    [GRAPHIC] [TIFF OMITTED] T7321.055
    
    Mr. Shimkus. Thank you. And now I would like to turn to Mr. 
James Frederick, who is from the United Steelworkers. Before I 
give you your 5 minutes, during the district work period, I 
visited the U.S. steel plant in Granite City, Illinois. We 
still make steel in this country. It is difficult to do. It is 
the second time I have been there but it is phenomenal, a big 
operation, so thanks to you and the membership for the guide 
and the tour and I look forward to hearing your testimony.

                STATEMENT OF JAMES S. FREDERICK

    Mr. Frederick. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to appear before 
you this morning to discuss the United Steelworkers' views on 
H.R. 908. The USW appreciates the opportunity to share our 
views with the Subcommittee on the important aspects of this 
issue and how H.R. 908, if passed, will extend the Department 
of Homeland Security Chemical Facility Anti-Terrorism 
Standards, CFATS.
    My name is Jim Frederick. I am a member of the United 
Steelworkers and the assistant director of the union's Health, 
Safety, and Environment Department in Pittsburgh, Pennsylvania. 
I have spent my 20-year career identifying and addressing 
workplace health and safety hazards; responding and 
investigating worker deaths, injuries, and illnesses; assisting 
local unions with health, safety, and environment improvements; 
and developing and delivering worker health, safety, and 
environment education and training programs.
    The full name of our union is the United Steel, Paper and 
Forestry, Rubber, Manufacturing, Energy, Allied-Industrial, and 
Service Workers International Union. As the largest industrial 
union in North America, we represent a total of 1.2 million 
active and retired members in the United States, Canada, and 
the Caribbean. More than 125,000 of these work in 800-plus 
chemical industry workplaces. Many of these are small 
workplaces and some are small businesses.
    The USW involvement in chemical plant security started long 
before the original promulgation of CFATS or the September 11, 
2001, terrorist attacks on the United States. Our union has 
always been actively engaged and involved with our members, 
communities, regulators, and legislators to improve workplace 
safety for our members, as well as their families and the 
community.
    The importance of this issue and these rules were well laid 
out in the Senate Committee on Homeland Security and 
Governmental Affairs hearing yesterday, titled ``10 Years After 
9/11.''
    As part of a broad coalition of more than 100 
organizations, the USW believes that legislation must be passed 
to improve chemical industry workplace safety and security, not 
just to extend the existing interim measures that generated 
CFATS rule. We believe that this is absolutely necessary to 
properly protect the communities that our members and their 
neighbors live and work. Recent examples from the Gulf oil 
spill to the earthquake and tsunami in Japan resonate of what 
can happen if catastrophic events take place in this country.
    And we believe the problems with CFATS include the 
following: (1), specific security measures. CFATS prohibits DHS 
from requiring any specific security measure. H.R. 908 would 
extend the prohibition from the DHS Secretary from denying 
approval for a Site Security Plan based on the presence or 
absence of a particular measure. The performance based 
standards will continue to allow employers to determine how 
they comply with the rules. Performance standards often result 
in cost and productivity taking precedence over safety. 
Performance standards also typically equate to less regulator 
oversight.
    An example of this is sometimes seen in chemical storage 
areas or tank farms at a chemical plant or oil refinery where 
retaining dikes are constructed to keep unexpected releases of 
chemicals from escaping to the environment beyond the tank 
farm. However, the retaining dikes are often in disrepair or 
are not engineered to retain the proper volume of chemicals in 
the tank farm.
    Next, smart security--CFATS fails to develop the use of 
smart security--safer and more secure chemical processes that 
can cost-effectively prevent terrorists from triggering 
chemical disasters. When we train workers and others to correct 
health and safety hazards in our workplaces we turn and follow 
the hierarchy of controls. The hierarchy of controls instructs 
us that the most effective way to control a hazard from causing 
an injury is to eliminate it or substitute it with something 
less hazardous. Legislation and standards addressing chemical 
plant security should utilize the same hierarchy principles to 
recognize and encourage the elimination or reduction of 
hazardous materials when possible and use substitution with 
less hazardous components.
    Safer processes may not be feasible in some circumstances, 
but they should at least be considered in a security plan. Many 
safety measures may be possible without expensive redesign and 
newer equipment. Since 1999, more than 500 facilities have used 
smart security to eliminate risks and create communities that 
are less vulnerable to harm. 500 is an impressive number but 
many, many more need specific guidance from legislation and 
regulation to implement such changes.
    Exemptions of too many workplaces at risk, as I already 
discussed this morning, CFATS explicitly exempts thousands of 
chemical and port facilities, including water treatment 
facilities and including at least half of the oil refineries in 
this country.
    Worker involvement: CFATS fails to involve knowledgeable 
workers in the development of vulnerability assessments and 
Site Security Plans or protect employees from its excessive 
background checks. Lesson after lesson can be taken from the 
input from workers in various workplace health and safety 
exercises of how that input has helped the employer to 
integrate and put in place effective security and safety 
measures.
    And one last point on risk shifting, CFATS fails to address 
the current problem of risk shifting, such as when companies 
shift chemical hazards to unguarded locations such as rail 
sidings. Risk shifting takes place continually in many 
workplaces. There are several reasons that this practice 
occurs, but the results are always the same. The community is 
at increased risk of exposure to a release of hazardous 
materials or to a terrorist obtaining these materials.
    In one recent example at a USW workplace, railcars of 
hydrofluoric acid are being stored off site property on rail 
sidings. The workplace stores approximately 2 million pounds of 
hydrofluoric acid, some offsite. The railcars are located near 
residential areas in the community. A release from 1 or more of 
these would be devastating to the residents close by and for a 
large area of the surrounding communities. Chemical plant 
security legislation can fully eliminate risk shifting by 
banning the practice legislatively and in subsequent 
regulation.
    The USW believes that legislation must be passed to improve 
chemical industry workplace safety and security that includes 
these items, not just to extend the existing interim measures 
that generated CFATS as a final rule. We believe that this is 
absolutely necessary to properly protect communities. However, 
if CFATS is going to be extended by this bill, please consider 
reduction of the time for the extension to 1 year and charge 
all stakeholders involved to convene as necessary to develop 
longer-term solutions to these problems.
    On behalf of the USW membership and their communities, 
thank you for the opportunity to testify this morning.
    [The prepared statement of Mr. Frederick follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.056
    
    [GRAPHIC] [TIFF OMITTED] T7321.057
    
    [GRAPHIC] [TIFF OMITTED] T7321.058
    
    [GRAPHIC] [TIFF OMITTED] T7321.059
    
    [GRAPHIC] [TIFF OMITTED] T7321.060
    
    [GRAPHIC] [TIFF OMITTED] T7321.061
    
    [GRAPHIC] [TIFF OMITTED] T7321.062
    
    [GRAPHIC] [TIFF OMITTED] T7321.063
    
    [GRAPHIC] [TIFF OMITTED] T7321.064
    
    [GRAPHIC] [TIFF OMITTED] T7321.065
    
    [GRAPHIC] [TIFF OMITTED] T7321.066
    
    Mr. Shimkus. Thank you. Now, the chair recognizes himself 
for 5 minutes for questions.
    We have used the word ``permanent'' and I guess in this 
system of authorization that 7 years would seem like permanent, 
but Mr. Allmond, you mentioned it is really a long-term 
authorization, which would then give us a time to look at the 
bill through the next process. Would you all agree with that, 
that this is really not a permanent authorization or 
reauthorization? This is a 7-year authorization. Mr. Skipp?
    Mr. Skipp. Yes, I would say that that is true. I think that 
there is a very steep learning curve that is going on here. 
Certainly, the efforts of the Department of Homeland Security 
have been admirable about how they bring this thing up. And I 
think we are now finding that we are getting our hands around 
this thing but we need more time. And I think this does that. 
Recognize the fact that rules can change down the way, but this 
is a great first step.
    Mr. Shimkus. Mr. Taber?
    Mr. Taber. I would agree with that wholeheartedly. Seven 
years is going to go by rather quickly. We have got a lot that 
we have done in the last several years. We need the next few 
years to tighten that up, and we also need the direct 
involvement with DHS more specifically now that we have filed, 
all our plants are willing to move forward.
    Mr. Shimkus. Mr. Allmond?
    Mr. Allmond. Yes, sir, Mr. Chairman. Seven years would 
provide a lot more time. I mean, Congress, you know, has a very 
important oversight responsibility down the road, but it would 
give, certainly, industry a lot more certainty.
    Mr. Shimkus. Mr. Frederick, you said 1 year so I want you 
to weigh in also.
    Mr. Frederick. Certainly. I already stated that we would 
recommend a shorter extension. The program has been in place 
for several years already. Extension only adds to making 
essentially this into a permanent fix as what was started and 
agreed to at the time to be a temporary interim quick solution.
    Mr. Shimkus. But 7 years is not permanent. I mean 7 years 
will come and there will be another reauthorization period to 
look at. I guess because the next point following up on this is 
that the full implementation CFATS hasn't occurred to date, is 
that correct?
    Mr. Skipp. That is correct.
    Mr. Shimkus. And anyone disagree with that? So the point 
being I think we have to be very, very careful about changing 
the rules midstream before everyone has completed the process 
that was designed originally. And so that is part, you know, I 
like what Mr. Murphy has done with the 7 years. Maybe that will 
be discussed as we move the process through in the committee. 
Maybe that time frame may be adjusted. I am not sure how the 
committee would do in an open process that that may come up. 
But I think it is important that we give the existing 
authorization time to get through the whole process. We heard 
the deputy secretary talk about they are not even through the 
process of tiering folks out, moving people around, and so that 
is just kind of an editorial comment.
    Do you all believe that there are other existing 
requirements for health and safety such as OSHA's Process 
Safety Management Program, the Emergency Planning and Community 
Right-to-Know Act, the EPA's Risk Management Program, and are 
these appropriate for safety protections?
    Mr. Skipp. Well, they are part of that as far as I am 
concerned. And we implemented all of those things in our 
community. We are a company that goes back to 1849 in the city 
of Waterbury. I am the 6th generation to run the family 
business, and I can tell you that being thoughtful to our 
community and making sure we are communicating well with them 
is something that we do every day, and we integrate that with 
our police and fire as well. So this would just complement 
those efforts, I believe.
    Mr. Tabar. Now, I know both for the coatings industry and 
with Sherwin-Williams, global process safety is very critical 
to us. We have made efforts not only here in the U.S., but we 
are looking at exporting our programs internationally. We think 
that a lot is embodied in process safety that deals with IST 
already and it is very normal for us to deal with substitutions 
and changes, reformulations as part of our chemical process 
safety efforts.
    Mr. Allmond. Yes, that is correct, Mr. Chairman, and as the 
under secretary testified, DHS is nowhere near close to 
understanding how to regulate IST at the moment.
    Mr. Shimkus. Mr. Frederick?
    Mr. Frederick. And it is certainly correct that these are 
pieces of a very complex issue that do come into play of 
providing some semblance of safety in those workplaces.
    Mr. Shimkus. Great. Thank you. My time is about expired, so 
I will yield to the ranking member, Mr. Green, for 5 minutes.
    Mr. Green. Mr. Chairman, I am just glad to hear you say you 
all. I thought that was something that I said----
    Mr. Shimkus. I am from Southern Illinois.
    Mr. Green. I know, Southern Illinois. Well, you all heard 
my questions earlier about coordination between because I have 
a lot of plants. In fact, along the Houston Ship Channel, all 
of my refineries--I have five refineries. Four of them are, by 
the way, organized by steelworkers and thank you. I used to 
have real steelworkers but now they are all refinery and 
chemical plant workers. The coordination of that to where we 
only have 1 federal identification card and that is our goal. 
And I know for your facilities it is the same thing.
    Mr. Frederick, you represent many of the workers at the 
chemical facilities. In fact, I was last year at a Conoco/
Chevron facility. It actually has 500 steelworkers, and it was 
after the economy cratered and some of my chemical plants are 
closing, but since they make these plastic bottles we all drink 
out of, they were running 3 shifts and 500 union members. Do 
you have concerns about the MTSA issues? Because I know that 
plant is on the channel, Ship Channel of Houston and Exxon/
Mobil refinery and Shell, but they also have facilities that 
are not covered by MTSA.
    Mr. Frederick. Yes. And for a number of reasons bur a 
couple of very good examples. One is just inconsistencies from 
within employers from one facility that is covered by CFATS to 
a facility that is not and how they have addressed the facility 
safety and security as a result of that inconsistency. So 
certainly, yes, there is a number of examples that we could go 
into of why we think those should be included in the same set 
of rules as those off the waterways.
    Mr. Green. OK. Mr. Skipp, you testified about potential for 
duplicative regulations. Under 2868, we would have ensured that 
facilities under MTSA would see only one regulator, the U.S. 
Coast Guard. Do you think that is important?
    Mr. Skipp. I liked what I heard Under Secretary Beers say, 
which is the harmonizing between those two departments of CFATS 
and MTSA. And I think that would be great. It all depends on 
how you define harmonized. As long as there is not a redundancy 
or duplicative efforts, which I know is a concern of yours, 
then I think it would be fine.
    Mr. Green. I guess because when you rolled out the 
Transport Worker Card, believe me, I had a lot of constituent 
case work when constituents, because of whatever reason, we had 
to work case-by-case through Lockheed who had the contract. And 
like I said, we have 260,000 of those, more than that now 
probably, and we want to make sure that we don't have to go 
through that again, don't remake the wheel. Don't we already 
have some----
    Mr. Skipp. Agreed.
    Mr. Green. Mr. Frederick, I am interested in your testimony 
you gave about the concerns of workers and regarding personnel 
security requirements. Are changes in 908 needed to ensure that 
workers' rights are protected?
    Mr. Frederick. Yes. And in one of the examples that is in 
my written statement, the need for worker involvement in the 
process of the Site Security Plans is very important. And in 
order to have thorough and good worker participation, some 
safety net of protection for them, a whistleblower protection 
for them is necessary. You know, in almost any other instance 
we recognize the deficiencies of that and can see that at some 
workplaces it is very encouraged, workers are involved, and at 
others for many reasons it is not. So we are concerned that, 
yes, there should be some provisions to protect workers as they 
participate in this process.
    Mr. Green. And I know in your testimony I agree with you. 
And I guess because there are other agencies that also regulate 
these same plant sites like OSHA and every once in a while I 
still get to go speak at one of my what I call share committee 
that we have a group of industries that bring the community 
involved, the fence line and also the employees are there, both 
unionized and management, and sit down and talk with the 
constituents. CFATS doesn't exempt that from current law like, 
for example, OSHA requirements.
    Mr. Frederick. Correct, and then some of that it has been, 
you know, referred to in the past by DHS as the employers 
certainly have the ability to do that, so it becomes somewhat 
of the voluntary piece for employers to do so. The problem is 
that not all employers volunteer.
    Mr. Green. OK. And having been on both sides of the 
bargaining table, the best way you get there is you talk to the 
folks actually producing a product and you can get the best 
ideas from them because they are living it every day.
    One of your exceptions, too, in your testimony, and you use 
the example of a chemical storage and tank farms, particularly 
with berms, EPA regulates those now or the State Environmental 
Agencies with the deference of EPA, because we have had some 
problems with those berms that are not updated. We end up 
contacting EPA instead of using another law. So there is 
already some current law that we can deal with on enforcement 
of those. And again, I know your members are out there every 
day and we work with our locals every way we can.
    So Mr. Chairman, I appreciate it. I know I would like to 
talk a little bit more about IST because having managed a 
business, we didn't call it inherently safer technology, but 
believe me, if we could save money and save on potential worker 
injuries, we used that as a part of our business practice. But 
thank you for your patience.
    Mr. Shimkus. Thank you. The chair now recognizes Mr. Murphy 
for 5 minutes.
    Mr. Murphy. Thank you. And I appreciate all the panel's 
comments. It is very helpful.
    Mr. Taber, with regard to the American Chemistry Council, 
how much have members spent overall--do you have any idea--in 
terms of----
    Mr. Taber. I could answer that but I am not a member of the 
American Chemistry Council but the American Coatings 
Association.
    Mr. Murphy. Well, how about Sherwin-Williams? I am sorry.
    Mr. Taber. That is OK.
    Mr. Murphy. I thought you had some knowledge of that, too. 
Does anybody there know in terms of how much----
    Mr. Taber. As far as the ACA goes I would say that we have 
not yet collected that data, party because we are awaiting the 
direct involvement with DHS on the interpretation of the Site 
Security Plans and Alternate Security Plans at the moment.
    Mr. Murphy. I appreciate that.
    Mr. Skipp. And I would echo that also. That is something we 
were waiting to find out more information from our people and 
how DHS will implement that.
    Mr. Murphy. But are you able to share how much your own 
companies have invested in all of this in terms of compliance 
or in terms of working through the security issue?
    Mr. Skipp. We have three relatively small facilities. It is 
just around $200,000.
    Mr. Murphy. OK. Mr. Taber, do you have----
    Mr. Taber. I can state it this way. It will likely be in 
the huge numbers in terms of the true capital cost. Right now 
we aggregate safety, health, environmental security----
    Mr. Murphy. Put together.
    Mr. Taber [continuing]. Expenditures and we are projecting 
a very large possible impact on the corporation as a function 
of this regulation.
    Mr. Murphy. Mr. Allmond, do you have any comments in terms 
of money that is invested in some of these security measures?
    Mr. Allmond. Congressman Murphy, I have an approximate 
amount, you know, tens of millions of dollars, especially when 
you factor in the staff time, the employee time to actually go 
through the Site Security Plans. You know, there is a lot of 
staff time built into complying with this regulation, 
especially up front.
    Mr. Murphy. I see. Mr. Frederick, do you have any idea how 
much some of the companies you work with have invested in 
working on these issues of security?
    Mr. Frederick. We are not privy to that information.
    Mr. Murphy. Is it working? OK. Very good. Sorry.
    Mr. Frederick. We typically don't receive that information 
from----
    Mr. Murphy. But your workers are engaged in these 
processes? You talked about the importance of sharing----
    Mr. Frederick. Yes. Yes.
    Mr. Murphy. OK. And how about one of the other members 
here? Do you include workers in Site Security reviews and 
welcome their input? Can you give us an idea of how you use 
that?
    Mr. Skipp. Sure. They participate on our safety committee. 
All employees do that. It is on a right-to-know basis. It is 
where their expertise might be able to help in one specific 
area, but as far as knowing the overall plan per se, they 
aren't necessarily involved in every aspect of that.
    Mr. Murphy. Is that done for security purposes?
    Mr. Skipp. Yes.
    Mr. Murphy. Same with you, Mr. Taber?
    Mr. Taber. Well, certainly under the OSHA programs, we are 
one of the leaders, at least in our firm with voluntary 
protection programs and OSHA cooperation and so we take the 
same perspective with safety and health as we do with security. 
I think some of the developing areas are the Employees Security 
Awareness Training programs that we are just on the verge of 
implementing that will take our security awareness and 
involvement with all employees to another level.
    Mr. Murphy. Mr. Allmond, agree?
    Mr. Allmond. Well, our organization has a program called 
ChemStewards that encourages all of our members to include 
employees into the decision-making process. I think generally 
they would agree with Mr. Skipp and Mr. Taber as well.
    Mr. Murphy. The reason I am asking that is Mr. Frederick 
brings up a point here and all of you are saying the companies 
recognize that people who do this every day have an inherent 
value in being able to provide that information. And given 
that, my impression when I have toured chemical facilities, 
even ones that maybe have been written up in the newspaper 
where someone snuck onto the site as part of a reporter's 
story, they have invested a great deal in taking care and have 
asked employees for their ideas. Is this something we need to 
codify into law or is something that is being done?
    Mr. Allmond. It doesn't need to be codified from my 
perspective and I am sure from our association's perspective 
because it is part of good business practice and what we do 
every day.
    Mr. Skipp. I would concur. I mean, as Mr. Green said, it is 
very important to tap into the knowledge of our expertise of 
our people and we do that every day through LEAN and other 
initiatives that it is just good business sense.
    Mr. Murphy. OK. I appreciate that. We want to make this 
bill work and we want to have the flexibility for Homeland 
Security to enact it. We heard before that they are working 
carefully with EPA. And I personally recognize I like it, as 
when I owned a business, I would ask my employees as well for 
suggestions along the way. The whole is greater than some of 
the parts and getting information from workers and goodness 
knows I believe with regard to management and employees, 
everybody wants to have a safe and secure workplace, and I 
would certainly encourage the association's continuing to hold 
those high standards.
    I recognize I am out of time, Mr. Chairman.
    Mr. Skipp. Can I make 1 other comment just about that? And 
I think that you didn't get a lot of clear numbers as far as 
where things are. We are really looking for certainty, and I 
think that is what this CFATS bill will do in order for people 
to invest more. There is some holding back because people are 
not sure which way to go because they haven't gotten enough 
feedback yet from the Agency.
    Mr. Murphy. That is important. Thank you, Mr. Chairman.
    Mr. Shimkus. Thank you. The chair recognizes Mr. 
Butterfield for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman and 
Ranking Member. Ladies and gentleman, it is good to see all of 
the witnesses today and thank you very much for your 
willingness to come forward and to give us your testimonies.
    Mr. Frederick, let me start with you. In your testimony I 
am told that you said that ``performance standards often result 
in cost and productivity taking precedence over safety.'' Did I 
quote you correctly?
    Mr. Frederick. Yes.
    Mr. Butterfield. We have seen several examples in the past 
year alone of major industrial actors placing profits over the 
safety of their workers and the safety of the environment, 
notably, with the BP oil spill. It is a serious issue and CFATS 
should be structured to limit the ability of covered facilities 
to place too much emphasis on cost at the expense of worker 
safety or the safety of the surrounding area.
    Question: Can you give an example of these performance 
standards resulting in cost concerns outweighing the concerns 
of security?
    Mr. Frederick. Yes. Without the specific workplace but 
within the oil-refining industry, some of the performance-based 
standards--this is the day-to-day case of the performance is 
achieved on paper but on the shop floor where the folks are 
working around the hazardous materials, the shortcuts have been 
taken, the hole in the fence has been filled with a camera 
instead of a new fence, whatever the case may be. We could 
provide some specifics from specific facilities for the record 
after the hearing if you would like.
    Mr. Butterfield. Well, what about a specific requirement 
from DHS to address the problem?
    Mr. Frederick. And on that, in some of just the perimeter 
security issues, the issue has been around fencing and when a 
gap in the fence, a hole in the fence has been in place, other 
measures have been taken instead of putting the more secure 
fencing in place.
    The example from the testimony of the berms or dikes to 
keep the unexpected release of chemicals from a tank is for 
compliance with other reasons but also comes into play the 
security because if there is a terrorist attack on that 
facility and the materials are released from more than 1 tank, 
oftentimes those are not designed to hold back that amount of 
the quantity of the materials within the tanks.
    Mr. Butterfield. Well, one thing leads to another. Then we 
get into a question of whether it is preferable to have a DHS-
sponsored security measure requirement that guarantees a level 
of safety but may not be flexible enough for the variety of 
facilities that are tiered from traditional chemical plants or 
refineries to labs that are at our universities. We understand 
that security isn't cheap and that one size does not fit all. 
It is a difficult job for DHS.
    I completely agree with you, with your assessment of the 
value of workers' input to the process. Workers must be 
involved and they must also to feel free to blow the whistle 
without fear of reprisal. This is something we have talked 
about extensively in previous legislation on this issue.
    My final question is do you feel that the current CFATS 
program adequately protects whistleblowers?
    Mr. Frederick. No. We would not believe it does. However, 
at this juncture we also have not had cases to cite, only in 
feedback from our members that work in those facilities that 
they have some concerns that they have reservations about 
raising because there is not an adequate safety net for them to 
speak out on those issues.
    Mr. Butterfield. All right. Thank you.
    Mr. Skipp. Congressman?
    Mr. Butterfield. Yes. I am going to yield. Yes, you may 
respond.
    Mr. Skipp. May I respond to that also?
    Mr. Butterfield. I have a minute left, yes. Sure.
    Mr. Skipp. I am Andrew Skipp and I run a chemical company 
in Connecticut and I can tell you that 90 percent of our 
members are owner/managers of their businesses. They live their 
business day in those facilities. There is nothing more 
important than the safety and security of those plants.
    And I can assure you that our members take that very 
seriously and that they don't compromise for the benefit of 
just expediency. It is critical. It is our lifeblood. It is our 
livelihood. And so we take that initiative very seriously.
    The matter about whistleblowers, I can't refer to that 
relative to CFATS, but certainly there are laws in place to 
protect them and it is something that we take very seriously in 
our business.
    Mr. Butterfield. Thank you. All right. Anyone else want to 
respond to that? I have a few seconds left.
    Mr. Frederick. Just I think the laws that are in place 
would not--for example, the protections within the OSHA Act 
would not protect a worker for calling into question something 
under the CFATS regulations.
    Mr. Butterfield. All right. Mr. Chairman, I will yield back 
my time.
    Mr. Shimkus. If the gentleman would yield me his last 4 
seconds.
    Mr. Butterfield. Sure.
    Mr. Shimkus. I just want to make sure, Mr. Frederick, that 
none of your comments are under CVI. In other words, the 
information that you were alluding to is under CVI?
    Mr. Frederick. In the example of the----
    Mr. Shimkus. Well, you were giving some anecdotal stories 
and we want to make sure that----
    Mr. Frederick. I don't believe so.
    Mr. Shimkus. OK.
    Mr. Frederick. To my knowledge, no.
    Mr. Shimkus. OK. That is what we need to know. Thank you. 
The chair now recognizes Mr. Cassidy for 5 minutes.
    Mr. Cassidy. I never knew steelworkers' name was so long. I 
once sat on a plane next to a guy who worked for you all and 
who was I think doing mining, which I thought--so anyway, now 
kind of the light bulb goes on.
    Mr. Frederick, there was one sentence in your testimony in 
which you suggested you would oppose more extensive background 
checks for workers. Did I hear that correctly?
    Mr. Frederick. Yes. And our concern around background 
checks is twofold. One is to make certain that there is a 
process in place that if an error results of the background 
check, that that individual has an opportunity to clarify that 
error and correct it prior to losing his or her employment.
    Mr. Cassidy. Now, I accept that, but inherent in having 
more involvement in a process is greater risk that a background 
check may show something which would eliminate somebody's job 
frankly. I mean if it turns out a kid smoked marijuana in 
college and got busted for it and now he is 45, well, then that 
may come back and reflect upon him in a negative way. Would you 
object to, you know, drug screens, et cetera, all this that 
takes place?
    Mr. Frederick. Well, there are drug testing programs in a 
variety of----
    Mr. Cassidy. And I just use that as an example, not as a 
concrete particular. So it is not background checks in 
particular you object to or more even exhaustive ones. Rather 
it is the lack of safeguards if someone loses employment 
because of that.
    Mr. Frederick. Yes. And recognizing that there are 
necessary pieces of information that are needed. Our experience 
thus far has been that this is and will be a very expensive 
process, expensive and extensive, for a very limited amount of 
return of finding things more than somebody who perhaps had a 
minor item such as you----
    Mr. Cassidy. So if you will, kind of the principle that for 
last marginal benefit, you got to pay a heck of a lot of money?
    Mr. Frederick. And in some of the other examples we are 
talking about yes, there are costs associated with doing 
dangerous work.
    Mr. Cassidy. And if you increase the cost, ultimately it is 
going to affect employment?
    Mr. Frederick. It may, yes.
    Mr. Cassidy. So my concern is, for example, that that same 
principle is involved here. I mentioned earlier to the earlier 
witness I went to visit the nuclear power plant and I was 
struck how much security they have, three different perimeter 
fences. Even if they cut a hole, there is a camera 
surveillance. And so they told me about how an armadillo 
wandered across and their motion detectors got it.
    Now, if we are going to have NRC do this level of 
requirement and overlay CFATS, do you see that as appropriate?
    Mr. Frederick. Well, specifically to the NRC provision, I 
don't have firsthand knowledge or experience. Our union does 
not represent workers at nuclear generators----
    Mr. Cassidy. But you mentioned that in your testimony as 
kind of a concern that they are excluded.
    Mr. Frederick. The NRC. And so what I want to explain is 
that within the NRC they also have regulatory authority over 
non-energy producing facilities beyond the nuclear plants. And 
in some of those facilities, one example being the NRC has 
oversight of a very narrow piece of the production process, so 
a very large facility, narrow piece is NRC, but because the NRC 
has authority over that narrow piece, CFATS does not apply. For 
example, that is the facility that has 2 million pounds of 
hydrofluoric acid onsite and some of it in railcars offsite. 
That is a real concern that the NRC, small piece of the 
operation that they have oversight for, a large facility 
excluded from CFATS.
    Mr. Cassidy. Now, my concern is that if we have overlay of 
federal agency over federal agency, that is not just a 
multiplier. That is an exponent in terms of the complexity and 
the expense of compliance.
    Now, it also seems this IST--I used the example of the 
Maginot Line where you have got this kind of, OK, this is the 
current technology but really there is something on the cusp 
but it has not been vetted, reviewed, public comments, so 
therefore it can't be because the de facto standard becomes the 
IST. That actually seems like a counterproductive mechanism. I 
don't see the problem--in fact, I see IST as almost the same 
problem you defined earlier going after marginal benefit with 
greater expense, ultimately costing jobs.
    Mr. Frederick. In some cases the using other technologies 
is certainly not costing jobs. There are many examples of 
better technologies being brought in place across worker health 
and safety, as well as site security. There are other examples 
that jobs have benefitted.
    Mr. Cassidy. If you have IST, that becomes a de facto 
standard, and if it becomes a de facto standard, even if there 
is a better technology, it most likely won't be implemented 
because there is a de facto standard issued by a reg 8 months 
ago even if 1 month ago there is a better technology that comes 
out.
    Mr. Frederick. However, if it is looked at and with a 
system in place as suggested in the testimony and in other 
folks that are looking at this issue currently in other bills, 
there are the ability to have a DHS appeals process that would 
ensure that the facility, the employer has the ability to refer 
this back with some questions and move on to----
    Mr. Cassidy. Now, I have been under this Federal Government 
now for 2 \1/2\ years but it is my impression that it dances 
like an elephant upon the head of a pin. It is very slow-
moving. It is very awkward. It is very laborious and expensive 
to work through that process. So I kind of return to my point 
that the reg issued 9 months ago becomes a de facto standard 
and 2 years later you finally work through the appeals process 
and in the meantime you are 3 generations ahead what you 
originally offered on appeal is now outdated. Do you follow 
what I am saying?
    Mr. Frederick. Yes.
    Mr. Cassidy. And so do you really see the bureaucracy in 
the appeals process working so well that we will always have 
the most current technology being used to secure our plants?
    Mr. Frederick. I see that we certainly would have better 
technology than is in place at the start of the process and the 
ability for the employer, the manufacturer to continue to move 
forward as long as it is within the scope of their security----
    Mr. Cassidy. But if there is a new technology that comes 
out and it is not part of the IST, what is the likelihood that 
it will be immediately implemented?
    Mr. Frederick. Well, and so perhaps I guess we are a little 
bit off of what we perceive the prescriptive standard on IST to 
look like. We believe that in the instance in some of the other 
applications of this issue that are in place, there is the 
flexibility for----
    Mr. Cassidy. Well, the assistant secretary actually, 
though, conceded the possibility that there would be a standard 
which would leave out something that would be technologically 
more advanced because it had not had a chance to be reviewed. 
And he actually, you know, frankly said yes, that is going to 
happen. He accepted that as a probability. And frankly that 
concerns me because I think that there is so much explosion of 
technology, we would be remiss in terms of safety and all of 
the other things if we didn't have a standard which allowed its 
usage.
    I yield back. Thank you.
    Mr. Shimkus. The gentleman yields back his time. Unanimous 
consent for the ranking member for a minute.
    Mr. Green. Yes. I want to ask, your response, Mr. 
Frederick, to our colleague from Louisiana that because NRC has 
jurisdiction over, for example, nuclear facility but they don't 
have jurisdiction over something else on that plant site that 
that would exempt any other regulation because NRC has it?
    Mr. Frederick. Just in this instance that I was referring 
to, just the CFATS regulation.
    Mr. Green. We are going to explore that because I know we 
have OSHA requirements at nuclear facilities and we really 
don't want overlay and duplication but we do want somebody 
looking at it.
    Mr. Frederick. Correct.
    Mr. Green. And so that is the concern.
    Mr. Shimkus. And I thank my colleague. I have a couple of 
pieces of business to finish up. Unanimous consent request that 
a letter from Mr. Dent on this be submitted for the record. 
Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.067
    
    [GRAPHIC] [TIFF OMITTED] T7321.068
    
    Mr. Shimkus. I also want to advise all members that we have 
10 legislative days to submit questions for the record and if 
you would be so good to return those questions to us to fulfill 
the hearing.
    With that, we do appreciate your time. Please feel free to 
visit with us on this issue as we move forward. We do want to 
bring some certainty to this. We do want to have a longer-term 
reauthorization of some size so that you all can move forward 
in helping in this process. So with that, the hearing is 
adjourned.
    [Whereupon, at 10:58 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T7321.069
    
    [GRAPHIC] [TIFF OMITTED] T7321.070
    
    [GRAPHIC] [TIFF OMITTED] T7321.071
    
    [GRAPHIC] [TIFF OMITTED] T7321.072
    
    [GRAPHIC] [TIFF OMITTED] T7321.073
    
    [GRAPHIC] [TIFF OMITTED] T7321.074
    
    [GRAPHIC] [TIFF OMITTED] T7321.075
    
    [GRAPHIC] [TIFF OMITTED] T7321.076
    
    [GRAPHIC] [TIFF OMITTED] T7321.077
    
    [GRAPHIC] [TIFF OMITTED] T7321.078
    
    [GRAPHIC] [TIFF OMITTED] T7321.079
    
    [GRAPHIC] [TIFF OMITTED] T7321.080
    
    [GRAPHIC] [TIFF OMITTED] T7321.081
    
    [GRAPHIC] [TIFF OMITTED] T7321.082
    
    [GRAPHIC] [TIFF OMITTED] T7321.083
    
    [GRAPHIC] [TIFF OMITTED] T7321.084
    
    [GRAPHIC] [TIFF OMITTED] T7321.085
    
    [GRAPHIC] [TIFF OMITTED] T7321.086
    
    [GRAPHIC] [TIFF OMITTED] T7321.087
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
